<html>
<title> - NOMINATIONS OF DAVID A. SAMPSON, TO BE DEPUTY SECRETARY AND JOHN J. SULLIVAN, TO BE GENERAL COUNSEL OF THE DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 109-336]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 109-336

  NOMINATIONS OF DAVID A. SAMPSON, TO BE DEPUTY SECRETARY AND JOHN J. 
                SULLIVAN, TO BE GENERAL COUNSEL OF THE 
                         DEPARTMENT OF COMMERCE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 18, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation






                     U.S. GOVERNMENT PRINTING OFFICE
26-532 PDF                 WASHINGTON : 2006
________________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








        SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 18, 2005.....................................     1
Statement of Senator Hutchison...................................     3
Statement of Senator Lott........................................     1
Statement of Senator Bill Nelson.................................    23
Statement of Senator Rockefeller.................................     2

                               Witnesses

Sampson, Dr. David A., Nominee to be Deputy Secretary of the 
  Department of Commerce.........................................     3
    Prepared statement...........................................     5
    Biographical information.....................................     6
Sullivan, John J., Nominee to be General Counsel of the 
  Department of Commerce.........................................    15
    Prepared statement...........................................    16
    Biographical information.....................................    17

                                Appendix

Response to written questions submitted to Dr. David A. Sampson 
  by:
    Hon. Daniel K. Inouye........................................    28
    Hon. Frank R. Lautenberg.....................................    29
    Hon. David Vitter............................................    27

 
  NOMINATIONS OF DAVID A. SAMPSON, TO BE DEPUTY SECRETARY AND JOHN J. 
     SULLIVAN, TO BE GENERAL COUNSEL OF THE DEPARTMENT OF COMMERCE

                              ----------                              


                        WEDNESDAY, MAY 18, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:10 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Trent Lott 
presiding.

             OPENING STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. The hearing will now come to order. Today's 
hearing will be short, so I will forego a lengthy statement so 
that the nominees can answer any questions that may need to be 
addressed to them by the Committee Members. I urge other 
Senators that may be here just to submit their statements for 
the record.
    Although, Senator Rockefeller, if you would like to speak 
at great length, certainly you would be recognized to do so.
    On April 4, 2005, the President nominated Dr. David Sampson 
to be Deputy Secretary of Commerce. Dr. Sampson currently 
serves as Assistant Secretary of Commerce for Economic 
Development. We welcome Dr. Sampson and his family.
    Are they here?
    Dr. Sampson. Yes, sir.
    Senator Lott. Let us recognize this good-looking family out 
here. How many have we got lined up there?
    Dr. Sampson. My wife and twin sons, John and Matt.
    Senator Lott. All right. Oh, double trouble, no question 
about that.
    [Laughter.]
    Senator Lott. But thank you, Mrs. Sampson, for sacrificing 
to allow your husband to serve his country in this way. But I 
hope you find some enjoyment in it too.
    Today's witnesses may have learned a little bit about the 
importance of fish to Members of this Committee. I did have a 
large chart with a smiling fish so you would think National 
Marine Fisheries Service every morning, Dr. Sampson. But I 
decided that you had been briefed in advance to the importance 
of fisheries.
    Both witnesses' full statements will be made a part of the 
record. Dr. Sampson, again, we congratulate you.
    And also, Mr. Sullivan, you currently serve as Deputy 
General Counsel of the Defense Department. And you clerked for 
Justice Souter. And we welcome you and your family here this 
morning. Are they here? Could we recognize them?
    Mr. Sullivan. Thank you, Senator. Yes. I have my mother-in-
law with me, Grace Rodriguez, and my two boys, Jack and Teddy 
Sullivan.
    Senator Lott. Well, they look very sharp in those fancy 
ties and coats.
    Congratulations to both of you. This is a credit to you to 
be recognized, to be nominated for these very important 
positions. Mr. Sullivan, both you and Dr. Sampson, you are 
going to have very critical positions at the Department of 
Commerce. Of course, this Committee will be following your 
activities very closely.
    May I yield to Senator Rockefeller for any opening comments 
you would like to make?

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Well, I will be brief, Mr. Chairman, 
as I always am. I did not have a chance to talk to Mr. 
Sullivan, but I had a wonderful conversation with Dr. Sampson. 
And we discussed the importance of manufacturing, the 
importance of jobs, the importance of what do you do when 
people 48 years old, you know--and nobody has really good 
answers. But it was a sensitization--is that the right word? 
Sensitivity training.
    And the Department of Commerce is huge for West Virginia. 
We actually discovered yesterday that we have the seventh 
largest inland port in America.
    Senator Lott. Where is that?
    Senator Rockefeller. Huntington, it is very big.
    International trade, we discussed, and the importance of 
having fair trade, as well as free trade. Sometimes it is easy 
to say both, but hard to differentiate when it comes to the 
practice of it. We work very, very closely with you. I 
expressed to you the importance of just you, as an individual, 
to this country and to my state.
    Trent Lott and I share a lot of the same kinds of problems 
and urgencies. And so I discussed these things with you. And we 
had a very, very good conversation, I thought.
    Mr. Sullivan, your task, obviously, is tremendously 
important.
    You are a lawyer, are you not, Trent?
    Senator Lott. Used to be.
    Senator Rockefeller. And I am not. But that is a large 
responsibility on your part. So we tend to try and work closely 
with you all. And we need you. And you need us, to a certain 
extent. And it should produce a productive relationship. I am 
very glad that you are both here, as well as your families.
    Dr. Sampson. Thank you, Senator.
    Mr. Sullivan. Thank you, Senator.
    Senator Lott. We are honored to have with us this morning 
to speak on behalf of Dr. Sampson, I believe, Senator Kay 
Bailey Hutchison, who is a very valued Member of this 
Committee.
    Senator Hutchison, we would be glad to open with your 
statement and, after that, have you join us, if you can, at the 
podium.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman. I am very 
pleased to be here to introduce my long-time friend. I have 
worked with him for a long time in Texas. And now he is going 
to be nominated for the position of Deputy Secretary of 
Commerce. He is an assistant secretary now and has done a 
terrific job as the principal advisor on policy development to 
the Secretary. He has established funding priorities to find 
grant investment policy guidelines. And in his role as 
directing operations of the Economic Development 
Administration, he initiated a reorganization of that part of 
the Commerce Department for the first time in the 37 years of 
the Department of Commerce history.
    Also, in addition to his professional background, he has a 
wonderful track record of vision and character and commitment 
to whatever job he holds. Before he assumed his present job at 
the Department of Commerce, he was involved in economic 
development activities at the state level in Texas. He was 
appointed by then Governor Bush to serve as Vice Chairman of 
the Texas Strategic Economic Development Planning Commission 
and then later chaired the Texas Council on Workforce and 
Economic Competitiveness.
    So I think he has had deep experience in exactly what we 
want the Commerce Department to do. And that is find ways to 
create a better economic climate in our country and create more 
jobs and keep our industry in America and make sure that we 
have a healthy business climate in our country.
    Dr. Sampson was the president and CEO of the Arlington 
Chamber of Commerce before he came into government. He led an 
aggressive business development and retention program there and 
was known as an effective leader throughout our state. He is a 
graduate of David Lipscomb University and earned his doctorate 
at Abilene Christian University. He currently resides in 
Northern Virginia, but I think his heart is still in Texas. And 
it is my honor to introduce him, someone that I know will do a 
great job for our country at this very important time in our 
economic period.
    Senator Lott. Well, thank you, honored colleague. We are 
very proud of the work you do. We know that you have pride in 
this nominee. I mean, it sounds like he has an excellent 
background and credentials. I am really pleased to learn of his 
experience in economic development and his knowledge of a 
variety of issues at the Commerce Department. When you look at 
the Commerce Department, it has a huge jurisdictional 
responsibility, all the way from trade to fisheries and other 
economic development. It is a very important department. And we 
have to have good, strong leadership there.
    So, Dr. Sampson, we will be glad to hear from you at this 
point.

       STATEMENT OF DR. DAVID A. SAMPSON, NOMINEE TO BE 
         DEPUTY SECRETARY OF THE DEPARTMENT OF COMMERCE

    Dr. Sampson. Thank you, Mr. Chairman. I am honored to 
appear before you as the President's nominee to be Deputy 
Secretary of the U.S. Department of Commerce. And I am deeply 
grateful to the President for the opportunity to serve and his 
confidence. And I appreciate Secretary Gutierrez's confidence 
and support, as well. And I also want to thank the Members of 
this Committee for their courtesies in visiting with me over 
the past couple of months.
    Today I would like to be able to give you a better sense of 
what I hope to accomplish as Deputy Secretary of Commerce, if 
given that opportunity. And let me begin by stating my very 
strong commitment to the core mission of the Department of 
Commerce.
    At the Department, we serve the American people by helping 
to create the right conditions for economic growth and 
expanding opportunity. We promote innovation. We foster 
entrepreneurship. We enhance competitiveness, and we encourage 
environmental stewardship. The Deputy Secretary of the 
Department of Commerce effectively serves as the agency's chief 
operating officer, overseeing the Department's 38,000 employees 
and $6.5 billion budget. And I also understand the Deputy 
Secretary acts as the Secretary's primary advisor and 
surrogate.
    As you have mentioned, the Department addresses a wide 
range of very important challenges to our Nation's economy 
every day from marine fisheries to international trade, the 
census, and various other scientific, environmental, 
technological, and economic areas.
    With the support of the Committee and the hardworking men 
and women of the Department, I am confident that I can maintain 
the high standards set by my predecessors and support Secretary 
Gutierrez's commitment to excellence. If confirmed by the 
Senate, I will try to bring my valuable experience to the 
Office of the Deputy Secretary. I am very proud of the track 
record that EDA has accomplished over the past 4 years and I am 
very appreciative of both the career and political staff that I 
have had the honor to work with.
    During my tenure, I have learned a lot about the Department 
of Commerce in interacting with other bureaus. But I clearly 
recognize that there is a lot still to learn. I welcome that 
challenge. I, if confirmed, will support the Secretary as he 
directs the Department's focus on economic growth and job 
creation. We will open foreign markets. We will insist that our 
trading partners comply with the full terms of their agreements 
with us. We will foster technological innovation. We will 
defend intellectual property rights. And we will implement 
effective export controls. We will promote the wise stewardship 
of our natural resources and oversee the collection of sound 
economic statistics to inform good policy.
    And if confirmed, I look forward to working with this 
Committee on these and other matters.
    In closing, I have been literally blessed with family, 
friends, and opportunity. And I am equally grateful especially 
for my wife Karen and my sons Matt and John for their support.
    Mr. Chairman, thank you again for this opportunity to 
appear before the Committee and for your consideration of my 
nomination. And I would be pleased to respond to any questions 
the Committee may have.
    [The prepared statement of Dr. Sampson follows:]

   Prepared Statement of Dr. David A. Sampson, Nominee to be Deputy 
                Secretary of the Department of Commerce
    Mr. Chairman, Senator Inouye, and Members of the Committee,
    I am honored to appear before you as the President's nominee to 
become Deputy Secretary of the U.S. Department of Commerce. I am 
grateful to President Bush for the opportunity to serve. And I deeply 
appreciate Secretary Gutierrez's confidence and support. Let me also 
thank the Members of this Committee.
    Today, I would like to give you a better sense of what I hope to 
accomplish as Deputy Secretary of Commerce, if given that opportunity. 
Let me begin by stating my strong commitment to the core mission of the 
Department of Commerce. At the Department, we serve the American people 
by helping to create the right conditions for economic growth and 
expanded opportunity. We promote innovation. We foster 
entrepreneurship. We enhance competitiveness. And we encourage 
environmental stewardship.
    The Deputy Secretary of the Department of Commerce effectively 
serves as the Agency's chief operating officer, overseeing the 
Department's 38,000 employees and $6.5 billion budget. The Deputy 
Secretary also acts as the Secretary's primary advisor and surrogate. 
The Department addresses a wide range of important challenges every 
day: From marine fisheries to international trade, the Census, and 
various other scientific, environmental, technological, and economic 
areas, the Department's work takes place on a global basis.
    With the support of the Committee, and the hardworking men and 
women of the Department, I am confident that I can maintain the high 
standards set by my predecessors and support Secretary Gutierrez's 
commitment to excellence.
    If confirmed by the Senate, I would bring valuable experience and 
knowledge to the office of Deputy Secretary. For the past four years, I 
have served as the Assistant Secretary for Economic Development.
    Our primary focus has been achieving results for people-in-need 
through leading-edge, market-based economic development strategies in 
partnership with distressed regions and communities. At the same time, 
we have also focused on embedding good management practices at EDA.
    I am proud that EDA was one of the first federal programs to adopt 
a fully functioning Balanced Scorecard system. This system has helped 
EDA to execute our strategy to raise performance throughout the 
organization. And it has helped us to deliver stronger results for the 
American people.
    The Balanced Scorecard played a large role in driving EDA's success 
when the President's Office of Management and Budget evaluated our 
performance with their Program Assessment Rating Tool (PART). Overall, 
EDA scored in the top tiers of federal programs.
    Also, as you know, the Congress reauthorized EDA in 2004. During 
the past several years, EDA's job creation efforts have been greatly 
strengthened by a pattern of increased private sector leverage of 
federal grant dollars. We understand that an economic development 
project does not begin to approach its potential until the private 
sector joins the enterprise through investment and involvement.
    During my tenure at EDA, one of the President's early statements 
has been a guiding objective. He said ``every American who is looking 
for work should be able to find a job.'' That mission has been my focus 
since the day I was confirmed as Assistant Secretary. The Committee can 
be confident that it will remain my primary goal as Deputy Secretary.
    Several of the positions I held prior to joining the Department had 
a particular bearing on my preparation to serve effectively as Deputy 
Secretary.
    Most recently, I served as President & Chief Executive Officer of 
the Arlington, Texas Chamber of Commerce. Concurrently, I served within 
then-Governor Bush's Administration by leading the Texas Council on 
Workforce and Economic Competitiveness as Chairman and serving as Vice 
Chair of the Texas Strategic Economic Development Planning Commission.
    My experience in the public and private sectors has taught me that 
the Federal Government can play an important role in economic 
development and the creation of jobs by fostering the conditions that 
allow the private sector to thrive and increase employment.
    While I am now familiar with the full Department's operations and 
programs, I know that the job of staying well-informed never ends. I 
welcome that challenge, And I will dedicate myself to meeting the high 
expectations for our Department from the President, the Secretary, and 
this Committee.
    If confirmed, I will support the Secretary as he directs the 
Department's focus on economic growth and job creation. We will open 
foreign markets. We will insist that our trading partners comply with 
the full terms of our trade agreements. We will foster technological 
innovation. We will defend intellectual property rights. We will 
implement effective export controls. We will promote the wise 
stewardship of our natural resources. And we will oversee the 
collection of sound economic statistics. If confirmed, I look forward 
to working with this Committee on these and other matters.
    In closing, I have been richly blessed with family, friends, and 
opportunity. I am deeply grateful, especially for my wife Karen and my 
twin sons, Matt and John.
    Mr. Chairman, thank you again for this opportunity to appear before 
you today, and for your consideration of my nomination. I would be 
pleased to respond to any questions you may have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION
    1. Name: David Allan Sampson.
    2. Position to which nominated: Deputy Secretary of Commerce.
    3. Date of Nomination: April 4, 2005.
    4. Address: Residence: information not released to the public. 
Office: 1401 Constitution Avenue, NW, Washington, DC 20230.
    5. Date and Place of Birth: July 2, 1957 in Washington, Indiana.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Karen Nichols Sampson is a social worker. She is 
        currently employed as a Schedule C appointee at the Department 
        of Health and Human Services as Special Assistant to the 
        Commissioner, The Commission on Children, Youth, and Families.

        Children: John David Sampson, 11 years old; Matthew Nicholas 
        Sampson, 11 years old.

    7. List all college and graduate degrees. Provide year and school 
attended.

        David Lipscomb University, Nashville, TN, BA, 1978.
        New Orleans Baptist Theological Seminary, M. Div., 1982.
        Abilene Christian University, Abilene, TX, D. Min, 1991.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Vice President of Business Services, The Arlington Chamber, 
        Arlington, Texas from 1992-1995.

        President and CEO, The Arlington Chamber, Arlington, Texas from 
        1995-2001.

        Assistant Secretary of Commerce for Economic Development, U.S. 
        Department of Commerce, from 2001-present.

    9. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.

        Board of Directors, Texas Association of Business and Chambers 
        of Commerce, from 1998-2000.

        Texas Council on Workforce and Economic Competitiveness, 
        Austin, Texas. State Commission, Chairman, 1999-2001.

    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.

        General Partner, T BAR 4 Cattle Company, Gaineville, Texas. 
        Partnership dissolved in December 2001 per ethics agreement 
        when nominated for Assistant Secretary of Commerce for Economic 
        Development.

    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent, or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Rotary Club of Arlington, Texas from 1983-1999.

        Arlington Ministerial Association, Arlington, Texas from 1982-
        1991. President in 1985.

        Shady Valley Golf Club, Arlington, Texas from 1983-2001.

        Arlington Choral Society Board of Directors from 1984-1985. 
        President in 1985.

        Arlington Chamber of Commerce from 1985-1991. Member of the 
        Board of Directors.

        International Churchill Society from 1984-present.

        Park Row Church of Christ from 1982-2001.

        None of the above listed organizations restricts membership on 
        the basis of sex, race, color, religion, national origin, age, 
        or handicap.

    12. Have you ever been a candidate for public office? I have never 
been a candidate for public office.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        George W. Bush for Governor, 1998, $1,000.
        George W. Bush, Bush for President, Inc., 2000, $1,000.
        George W. Bush, Bush-Cheney 2004, (primary) Inc., $2,000.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Air Force Commendation Medal.
        Debate Scholarship, David Lipscomb University in 1975.
        Paul Harris Fellow, Rotary International, in 1998.
        Distinguished Alumni Award, David Lipscomb University, College 
        of Arts and Humanities, in 2003.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Articles written while CEO of the Arlington Chamber:

        Doing a Checkup on Arlington's Health, Arlington Star-Telegram, 
         2/6/97.

        The Values of Doing Business, Arlington Star-Telegram,  3/11/
        97.

        GM Plant's Future Depends on its Workers, Arlington Star-
        Telegram,  3/18/97.

        Are More Jobs Not Always Better, Arlington Star-Telegram,  4/1/
        97.

        Giving Commerce Department Legs to Stand on in Texas, Arlington 
        Star-Telegram,  4/15/97.

        Arlington, Let's Stay on this Economic Trail, Arlington Star-
        Telegram,  6/3/97.

        What Makes Economic Growth Run? It's No Mystery, Arlington 
        Star-Telegram,  10/14/97.

        The U.S. Needs Fast-track Trade Authority, Arlington Star-
        Telegram,  10/21/97.

        The Cloud on Texas' Bright Economic Horizon, Arlington Star-
        Telegram,  1/21/98.

        Community Colleges Are the Key, Arlington Star-Telegram,  3/24/
        98.

        Tomorrow's Workforce Depends on Quality of Today's Education, 
        Arlington Star-Telegram,  8/4/98.

        Why Be Concerned about Economic Development Anyway, Arlington 
        Star-Telegram,  8/18/98.

        GM Plant Called up to Bat Once Again, Arlington Star-Telegram,  
        12/8/98.

        Don't Forget Tax Credits in Building Knowledge-based Economy, 
        Arlington Star-Telegram,  3/23/99.

        Keeping the Economic Engines Running, Arlington Star-Telegram,  
        5/11/99.

        Setting Texas' Economic Development Program on the Right Road, 
        Arlington Star-Telegram,  2/8/00.

        Tiny Technology Means Big Gains for City, Arlington Star-
        Telegram,  2/22/00.

        Globalization, Sumo Wrestlers and Sprinters, Arlington Star-
        Telegram,  4/4/00.

        GM Arlington Going for World Class, Arlington Star-Telegram,  
        5/2/00.

        Economy Looks to the Future, but Our Degree Plans Don't, 
        Arlington Star-Telegram,  8/22/00.

        Developing the Community and Work Force Means More Wealth, Less 
        Poverty, Arlington Star-Telegram,  12/27/00.

        What Are Texas' Top Business Communities Seeking? Arlington 
        Star-Telegram,  2/13/01.

        A Model for Education in the New Economy, Arlington Star-
        Telegram. 

        Texas Strategic Economic Development Plan, 1998-2008.

        Texas Strategic Economic Development Planning Commission, 10/
        30/98.

    Speeches while serving as Assistant Secretary

        Opening Statement of David A. Sampson,
        Nominee to be Assistant Secretary of Commerce for Economic 
        Development,
        Committee on Environment and Public Works,
        United States Senate,
        Washington, D.C., July 25, 2001.

        Remarks of David A. Sampson,
        U.S.-Mexican Border Summit,
        The University of Texas--Pan American,
        Edinburg, TX, August 24, 2001.

        Remarks of David A. Sampson,
        Council for Urban Economic Development,
        Philadelphia, PA, September 10, 2001.

        Remarks of David A. Sampson,
        Department of Labor Region 1,
        Conference Newark, NJ, October 26, 2001.

        Testimony of David A. Sampson,
        Committee on Environment and Public Works,
        United States Senate,
        Washington, D.C., November 1, 2001.

        Remarks of David A. Sampson,
        U.S./Mexico Strategic Alliance Conference,
        Juarez, Mexico,
        November 7, 2001.

        Remarks of David A. Sampson,
        EDA Austin Regional Office Southwestern Region,
        Mid-Year Training Conference Oklahoma City, OK, November 8, 
        2001.

        Remarks of David A. Sampson,
        Christ's Haven for Children Dinner,
        Dallas, TX, November 16, 2001.

        Remarks of David A. Sampson,
        National Indian Economic Development Conference,
        Oklahoma City, OK, December 6, 2001.

        Remarks of David A. Sampson,
        National Governors Association,
        Workforce Development Policy Forum,
        New Orleans, LA, December 7, 2001.

        Remarks of David A. Sampson,
        An Economic Strategy for the 21st Century,
        January 8, 2002.

        Remarks of David A. Sampson,
        Department of Labor Region IV,
        Leadership Roundtable,
        January 11, 2002.

        Remarks of David A. Sampson,
        National Association of State Workforce Board Chairs,
        February 23, 2002.

        Remarks of David A. Sampson,
        National Association of Counties,
        Annual Legislative Conference,
        March 2, 2002.

        Testimony of David A. Sampson,
        U.S. Senate Committee on Environment and Public Works,
        Brownfields Revitalization,
        March 6, 2002.

        Remarks of David A. Sampson,
        Arkansas Workforce Investment Board,
        March 19, 2002.

        Remarks of David A. Sampson,
        International Consuls Ball,
        March 23, 2002.

        Remarks of David A. Sampson,
        EDA Philadelphia Region,
        Economic Development Conference,
        April 6, 2002.

        Remarks of David A. Sampson,
        MAPDD Annual Conference,
        May 2, 2002.

        Remarks of David A. Sampson,
        EDA Chicago Regional Office Annual Conference,
        May 9, 2002.

        Remarks of David A. Sampson,
        New York State Economic Development Council Meeting,
        May 24, 2002.

        Remarks of David A. Sampson,
        National Governors Association,
        Georgia Eastern Region Competitiveness Summit,
        June 6, 2002.

        Remarks of David A. Sampson,
        David Lipscomb University,
        July 9, 2002.

        Remarks of David A. Sampson,
        Department of Labor Workforce Innovation 2002 Conference,
        July 9, 2002.

        Remarks of David A. Sampson,
        Texas Workforce Commission Conference,
        Dallas, Texas,
        September 4, 2002.

        Remarks of David A. Sampson,
        EDA Seattle Regional Office Regional Forum,
        San Diego, California,
        September 5, 2002.

        Remarks of David A. Sampson,
        S.W. Florida Hispanic Chamber of Commerce,
        The White House,
        September 19, 2002.

        Remarks of David A. Sampson,
        International Economic Development Council,
        Oakland, California,
        September 23, 2002.

        Remarks of David A. Sampson,
        Abilene Christian University,
        Abilene, Texas,
        September 30, 2002.

        Remarks of David A. Sampson,
        Abilene Civic Leaders Meeting,
        Abilene, Texas,
        September 30, 2002.

        Remarks of David A. Sampson,
        National Association of Development Organizations,
        NADO 35th Annual Training Conference,
        Reno, Nevada,
        October 1, 2002.

        Remarks of David A. Sampson,
        State Science and Technology Institute Conference,
        Dearborn, Michigan,
        October 3, 2002.

        Remarks of David A. Sampson,
        East Mississippi Business Development Corporation,
        Meridian, Mississippi,
        October 14, 2002.

        Remarks of David A. Sampson,
        Association of University Research Parks 17th Annual 
        Conference,
        New Orleans, Louisiana,
        October 31, 2002.

        Remarks of David A. Sampson,
        Tech Transfer Showcase,
        Patuxent River, Maryland,
        November 12, 2002.

        Remarks of David A. Sampson,
        EDA Austin Office Regional Forum,
        Santa Fe, New Mexico,
        December 12, 2002.

        Remarks of David A. Sampson,
        Ft. Walton Rotary Club,
        Ft. Walton Beach, Florida,
        January 29, 2003.

        Remarks of David A. Sampson,
        American Water Works Association and Water Environment 
        Federation 2003 Joint Management Conference,
        Dallas, Texas,
        February 10, 2003.

        Remarks of David A. Sampson,
        National Association of Workforce Boards,
        Washington, D.C.,
        March 4, 2003.

        Remarks of David A. Sampson,
        International Economic Development Council,
        IEDC Economic Development Summit,
        Washington, D.C.,
        March 6, 2003.

        Remarks of David A. Sampson,
        National Association of Regional Councils,
        Washington Policy Conference,
        Washington, D.C.,
        March 17, 2003.

        Remarks of David A. Sampson,
        Embracing Regional Collaboration and Enhancing Community 
        Success Summit,
        Dallas, Texas,
        March 24, 2003.

        Remarks of David A. Sampson,
        Portland, Oregon Business Alliance,
        Washington, D.C.,
        April 10, 2003.

        Remarks of David A. Sampson,
        Federal Reserve Bank of Kansas City,
        Center for the Study of Rural America,
        April 28, 2003.

        Remarks of David A. Sampson,
        Commonwealth North,
        Anchorage, Alaska,
        May 28, 2003.

        Remarks of David A. Sampson,
        Organization for Economic Cooperation and Development 
        Territorial Development Policy Committee High Level Meeting,
        June 25, 2003.

        Remarks of David A. Sampson,
        Pittsburgh Technology Council,
        Pittsburgh, Pennsylvania,
        July 9, 2003.

        Remarks of David A. Sampson,
        Balanced Scorecard Summit,
        Washington, D.C.,
        September 16, 2003.

        Remarks of David A. Sampson,
        Governor's Homeland Security Conference,
        Virginia Military Institute,
        October 29, 2003.

        Remarks of David A. Sampson,
        ACCE Annual Conference,
        Charlotte, North Carolina,
        October 30, 2003.

        Remarks of David A. Sampson,
        Future Forward Economic Alliance Summit,
        Boone, North Carolina,
        November 20, 2003.

        Remarks of David A. Sampson,
        Council on Competitiveness Conference,
        Cleveland, Ohio,
        November 21, 2003.

        Remarks of David A. Sampson,
        Southwest Regional Conference,
        San Antonio, Texas,
        December 9, 2003.

        Remarks of David A. Sampson,
        National Congress for Community Economic Development,
        Washington, D.C.,
        March 9, 2004.

        Remarks of David A. Sampson,
        National Rural Development Partnership,
        Policy Consultation,
        Rural Cabinet Meeting,
        Arlington. Virginia,
        March 17, 2004.

        Remarks of David A. Sampson,
        Internal Economic Development Council,
        Washington, D.C.,
        March 19, 2004.

        Remarks of David A. Sampson,
        Greater Waterbury Chamber of Commerce,
        Waterbury, Connecticut,
        March 24, 2004.

        Remarks of David A. Sampson,
        32nd Annual New Mexico First Town Hall Dinner,
        April 15, 2004.

        Remarks of David A. Sampson,
        National Baseball Hall of Fame,
        Cooperstown, New York,
        May 10, 2004.

        Remarks of David A. Sampson,
        Council on Competitiveness Conference,
        Coeur d' Alene, Idaho,
        May 27, 2004.

        Remarks of David A. Sampson,
        Texas Workforce Commission,
        Austin, Texas,
        June 23, 2004.

        Remarks of David A. Sampson,
        Casper Area Economic Alliance Annual Dinner,
        Casper, Wyoming,
        June 26, 2004.

        Remarks of David A. Sampson,
        West Texas Legislative Summit,
        San Angelo, Texas,
        August 5, 2004.

        Remarks of David A. Sampson,
        ``The Innovation Continuum''--A Conference Hosted by the 
        Council On Competitiveness & Rensselaer Polytechnic Institute,
        Troy, New York,
        September 8, 2004.

        Remarks of David A. Sampson,
        Kansas City Area Development Council,
        Quarterly Meeting,
        Kansas City, Missouri,
        September 16, 2004.

        Remarks of David A. Sampson,
        OECD World Forum of Key Indicators,
        Palermo, Italy,
        November 12, 2004.

        Remarks of David A. Sampson,
        OECD International Conference on Innovation and Regional 
        Development,
        Tuscany, Italy,
        November 25, 2004.

        Remarks of David A. Sampson,
        St. Louis Regional Competitiveness Summit,
        St. Louis, Missouri,
        February 17, 2005.

        Remarks of David A. Sampson,
        White House Briefing to the National Congress of American 
        Indians,
        Washington, D.C.,
        March 2, 2005.

        Remarks of David A. Sampson,
        SBA Conference ``Pulling it Together: The Role of 
        Entrepreneurship in Economic Development'' Conference,
        Washington, D.C.,
        March 7, 2005.

        Remarks of David A. Sampson,
        Downtown Waco, Inc. Dinner,
        Waco, Texas,
        March 9, 2005.

        Remarks of David A. Sampson,
        National Council on Community Economic Development,
        NCCED 10th Annual Policy Summit,
        Washington, D.C.,
        March 14, 2005.

        Remarks of David A. Sampson,
        National League of Cities,
        ``Congressional Cities Conference,''
        Washington, D.C.,
        March 14, 2005.

        Remarks of David A. Sampson,
        International Economic Development Council,
        General Session,
        Washington, D.C.,
        March 15, 2005.

    Periodicals written while serving as Assistant Secretary:

        Technology Fuels Growth,
        Op-Ed Page,
        Albuquerque Journal
        Albuquerque, New Mexico,
        December 16, 2002.

        A Message from David A. Sampson,
        Economic Development America,
        Spring 2004.

        A Message from David A. Sampson,
        Economic Development America,
        Summer 2004.

        A World of Opportunity: The Case for Optimism in the Worldwide 
        Economy,
        Economic Development America,
        Fall 2004.

        Our Universities: Accelerators for Economic Growth,
        Economic Development America,
        Winter 2004.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.

                   B. POTENTIAL CONFLICTS OF INTEREST
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association, or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    None prior to commencing my service with this Administration. 
During my Federal Government service I have helped draft or edit 
letters to Members of Congress and Senators, appeared before 
Congressional Committees, and met with Members of Congress, Senators, 
and Congressional staff regarding the Administration position on 
various issues, including legislation.
    I served as the Administration's point person on behalf of the 
``Economic Development Administration Reauthorization Act of 2004.'' In 
that capacity, I met with individual Members of Congress and their 
staff to discuss the bill and testified before Congressional 
Committees.
    In February 2005, President Bush proposed the ``Strengthening 
America's Communities Initiative'' in his FY06 Budget Submission. As 
Assistant Secretary of Commerce for Economic Development, I have met 
with Members of Congress and their staff to explain the proposal and 
testified before the House Subcommittee on Federalism and the Census, 
as well as the House Transportation Subcommittee on Economic 
Development and Public Buildings.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I will consult with ethics officials of the Department of Commerce 
and take whatever action is deemed necessary and appropriate to resolve 
or avoid any potential conflict of interest.

                            C. LEGAL MATTERS
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject to any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
an Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense?
    In June 2003, the Department of Commerce Office of Inspector 
General (OIG) received an anonymous complaint alleging that I had 
violated conflict of interest rules relative to the award of an EDA 
grant to the University of Texas at Arlington Technology Incubator. The 
OIG, after a thorough investigation, found that the allegation had no 
merit, and in fact, found unequivocally, that I took no action to 
affect the award of the grant, and there was no violation of law or 
regulation by the agency.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    Over the past 4 years, I have led the Economic Development 
Administration through significant change, including a reorganization, 
the introduction of investment policy guidelines and funding priorities 
for its activities, the implementation of a balanced scorecard, and 
application of rigorous performance management of personnel. While this 
resulted in a dramatic improvement of EDA's overall performance (as 
evidenced in OMB's PART analysis rating EDA as the highest performer 
among Federal Government's 18 community and economic development direct 
grant programs), it also resulted in a 20 percent reduction of 
headquarters staff. It is possible that some internal and external 
groups that opposed these management initiatives may take issue with my 
nomination.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    As the head of a bureau at the Department of Commerce, I am 
ultimately responsible for all personnel decisions taken by all 
supervisors in the bureau. It is my understanding that during my four 
years at the Department, only one employee initiated a discrimination 
case against the Department through the administrative process open to 
all federal employees. Four other cases existed at the time I became 
Assistant Secretary. These were settled or dismissed, and one is 
pending decision. There have been no findings of discrimination.

                   D. RELATIONSHIP WITH THE COMMITTEE
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    If confirmed by the Senate, I will make it a high priority to 
ensure the department complies with deadlines set by congressional 
committees.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    If confirmed by the Senate, I will make it a priority to ensure 
that the department protects congressional witnesses and whistle 
blowers from reprisal.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    If confirmed by the Senate, I will make it a priority to ensure the 
Committee has access to witnesses and subject matter experts to assist 
in your oversight and policy development responsibilities.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    If confirmed by the Senate, it will be a personal priority to make 
myself available to appear and provide testimony before Congressional 
Committees.

    Senator Lott. Thank you, Dr. Sampson.
    Let us go ahead with John Sullivan and his testimony on 
behalf of his nomination to be General Counsel of the 
Department of Commerce. I read your resume. It is very 
interesting. You certainly have plenty of legal experience and 
good experience working as the Deputy General Counsel at the 
Department of Defense.
    I also noted that you served as a law clerk to Judge John 
Minor Wisdom of the Fifth Circuit Court of Appeals----
    Mr. Sullivan. That is correct, Senator.
    Senator Lott. in New Orleans, Louisiana. Whether you agree 
with his decisions or not, he certainly has a well-earned 
reputation for having some of the brightest and subsequently 
most successful law clerks of just about any appellate court 
judge in this country. So just the fact that you clerked with 
him probably boosts your credentials even more.
    Mr. Sullivan. Thank you very much, Senator. It was a great 
honor to----
    Senator Lott. Well, having said that, we would be glad to 
hear your statement this morning.

STATEMENT OF JOHN J. SULLIVAN, NOMINEE TO BE GENERAL COUNSEL OF 
                   THE DEPARTMENT OF COMMERCE

    Mr. Sullivan. Thank you, Mr. Chairman, Members of the 
Committee. I am honored to appear before you today as the 
President's nominee to serve as the General Counsel of the U.S. 
Department of Commerce. I am grateful and honored that 
President Bush has given me this opportunity. And I am deeply 
gratified by the confidence and support shown to me by 
Secretary Gutierrez.
    I would also like to thank this Committee and its staff for 
the courtesies they have extended to me in this confirmation 
process.
    The General Counsel of the Department of Commerce is the 
agency's chief legal officer, providing advice to the Secretary 
and senior officials as they perform their vital work. The 
breadth of the Department's responsibilities and activities are 
reflected in the complex legal environment in which it 
operates. Competently handling the complex legislative and 
regulatory issues faced daily in the Department, from the 
regulation of international trade to management of marine 
fisheries and a multitude of other functions, all those issues 
will present a formidable challenge, but one that I welcome.
    If confirmed by the Senate, I believe I will bring 
substantial relevant experience to the position of General 
Counsel. In 20 years of law practice, I have had the privilege 
of serving in a wide variety of positions, as a law clerk to 
Judge John Minor Wisdom in New Orleans and to Supreme Court 
Justice David H. Souter of New Hampshire and was counselor to 
the assistant attorney general in charge of the Office of Legal 
Counsel at the Justice Department.
    I have been a partner in the law firm of Mayer, Brown, Rowe 
and Maw here in the D.C. office. And as you mentioned, Senator, 
my current position, I am the Deputy General Counsel of the 
Defense Department. In all of these roles, in representing 
clients in trial and appellate proceedings, complex regulatory 
matters, and international business transactions, I believe I 
have developed the skills and experience necessary to address 
the legal changes facing the Commerce Department.
    I also know that I have much to learn about the Department, 
its programs, and the laws and regulations that govern its 
operations. As I look forward to beginning this education, I 
know that I will be well supported by the deep and talented 
staff of career lawyers and other professionals at the 
Department. I am confident that with their support I will 
perform my duties with the skill and professionalism that 
President Bush and you expect and deserve.
    In this regard, there is no more important duty for the 
General Counsel than to serve as the chief ethics lawyer for 
the Department. Compliance with the letter and spirit of the 
ethics laws is a top priority for Secretary Gutierrez. I share 
a strong commitment to ensuring that the employees of the 
Department act with the utmost integrity and honesty. And I 
will strive to ensure that the Department's programs are 
implemented in that spirit.
    I also have a keen appreciation for the role of this 
Committee and the other committees of the Congress in enacting 
the laws under which the Department operates and in conducting 
oversight of the manner in which those laws are executed. I 
would welcome the opportunity to work with you as the 
Department pursues its multiple missions.
    Permit me to conclude by saying that I believe that public 
service is a special privilege and responsibility. If 
confirmed, I will commit my utmost energy, integrity, and 
devotion to serving the President and the American people. 
Thank you again for the opportunity to appear before you today 
and for your consideration of my nomination.
    I would be pleased to respond to any questions you may 
have.
    Senator Lott. Thank you.
    [The prepared statement of Mr. Sullivan follows:]

 Prepared Statement of John J. Sullivan, Nominee to be General Counsel 
                     of the Department of Commerce
    Mr. Chairman. Senator Inouye, Members of the Committee, I am 
honored to appear before you today as the President's nominee to serve 
as the General Counsel of the U.S. Department of Commerce. I am 
grateful and honored that President Bush has given me this opportunity, 
and I am deeply gratified by the confidence and support shown to me by 
Secretary Gutierrez. I would also like to thank this Committee and its 
staff for the courtesies they have extended to me.
    The General Counsel of the Department of Commerce is the agency's 
chief legal officer, providing advice to the Secretary and senior 
officials as they perform their vital work. The breadth of the 
Department's responsibilities and activities are reflected in the 
complex legal environment in which it operates. Competently handling 
the myriad legislative and regulatory issues faced daily in the 
Department--from regulation of international trade to management of 
marine fisheries and a multitude of other functions--will present a 
formidable challenge, but one that I welcome.
    If confirmed by the Senate, I believe I would bring substantial 
relevant experience to the position of General Counsel. In 20 years of 
law practice, I have had the privilege of serving in a wide variety of 
positions: as a law clerk to Judge John Minor Wisdom and to Supreme 
Court Justice David H. Souter; as Counselor to the Assistant Attorney 
General in charge of the Office of Legal Counsel at the Justice 
Department; as a partner in the international law firm of Mayer, Brown, 
Rowe & Maw; and my current position as Deputy General Counsel of the 
Department of Defense. In all of these roles--in representing clients 
in trials and appellate proceedings, complex regulatory matters, and 
international business transactions--I believe I have developed the 
skills and experience necessary to address the legal challenges facing 
the Commerce Department.
    I also know that I have much to learn about the Department, its 
programs, and the laws and regulations that govern its operations. As I 
look forward to beginning this education, I know that I will be well 
supported by the deep and talented staff of career lawyers and other 
professionals at the Department. I am confident that, with their 
support, I will perform my duties with the skill and professionalism 
that President Bush and you expect and deserve.
    In this regard, there is no more important duty for the General 
Counsel than to serve as the chief ethics lawyer for the Department. 
Compliance with the letter and spirit of the ethics laws is a top 
priority for Secretary Gutierrez. I share his strong commitment to 
ensuring that the employees of the Department act with the utmost 
integrity and honesty, and I will strive to ensure that the 
Department's programs are implemented in that spirit.
    I also have a keen appreciation for the role of this Committee, and 
the other Committees of the Congress, in enacting the laws under which 
the Department operates and in conducting oversight of the manner in 
which those laws are executed. I would welcome the opportunity to work 
with you as the Department pursues its multiple missions.
    Permit me to conclude by saying that I believe that public service 
is a special privilege and responsibility. If confirmed, I will commit 
my utmost energy, integrity and devotion to serving the President and 
the American people. Thank you again for the opportunity to appear 
before you today, and for your consideration of my nomination.
    I would be pleased to respond to any questions you may have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION
    1. Name (Include any former names or nicknames used): John Joseph 
Sullivan.
    2. Position to which nominated: General Counsel of the United 
States Department of Commerce.
    3. Date of Nomination: May 10, 2005.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.
        Office: Deputy General Counsel (Legal Counsel), United States 
        Department of Defense, Room 3B688, 1600 Defense Pentagon, 
        Washington, DC 20301-1600.

    5. Date and Place of Birth: November 20, 1959: Boston, MA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Wife: Graciela Maria Rodriguez,
        Partner, King & Spalding LLP,
        1700 Pennsylvania Avenue, NW.,
        Washington, DC 20006-4706.

        Children: John Hugh Sullivan, 14,
        Katherine Ann Sullivan, 11,
        Edward Albert Sullivan, 8.

        7. List all college and graduate degrees. Provide year and 
        school attended.

        Brown University, A.B. in Political Science and History, 1981.
        Columbia University School of Law, J.D., 1985.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Deputy General Counsel, United States Department of Defense 
        (2004-present).

        Partner, Mayer, Brown, Rowe & Maw (1997-2004).

        Associate. Mayer, Brown & Platt (1993-1996).

        Counselor to the Assistant Attorney General, Office of Legal 
        Counsel, United States Department of Justice (1991-1992).

        Law Clerk, Justice David H. Souter, Supreme Court of the United 
        States (1990-1991).

        Associate, Paul, Weiss, Rifkind, Wharton & Garrison (1987-
        1990).

        Law Clerk, Judge John Minor Wisdom, United States Court of 
        Appeals for the Fifth Circuit (1985-1986).

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.
    Partner, Mayer, Brown, Rowe & Maw, 1997-2004.
    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Member, New York Bar, 1987-present.
        Member, D.C. Bar, 1993-present.
        Member, Federalist Society, 1990-present.
        General Counsel, Phil Gramm for President, 1995.
        Head Coach, Montgomery Youth Hockey Association, 1997-2004.

        None of these organizations restricts membership on the basis 
        of sex, race, color, religion, national origin, age or 
        handicap.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        Floyd, Charles, via Floyd for Congress Committee, 12/15/2003--
        $500.00.
        Ryan, Jack, via Jack Ryan for U.S. Senate, 02/06/2004--$500.00.
        Bush, George W., via Bush for President Inc., 05/13/1999--
        $1000.00.
        Bush, George W., via Bush-Cheney 2004 (Primary) Inc., 05/29/
        2003--$2000.00.

        Bush, George W., via Bush-Cheney 2004 Compliance Committee 
        Inc., 08/18/2004--$2000.00.

        Republican National Committee, 12/26/2003--$500.00.

        Total Contributions: $6,500.00.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements: None.
    15. Please list each book. article, column, or publication you have 
authored, individually or with others. and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    ``Federal Preemption: Two Renditions of a Fundamental Theme,'' 
Inside Litigation (October 1998); ``Appeals to the Supreme Court,'' 
Business and Commercial Litigation in Federal Courts (West 1998); 
``Supreme Court Bypasses Airbag Preemption Case,'' Legal Opinion 
Letter, Washington Legal Foundation (1996); Note, ``The Equal Access to 
Justice Act in the Federal Courts,'' 84 Colum. L. Rev. 1089 (1984).
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.

                   B. POTENTIAL CONFLICTS OF INTEREST
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    I continue to maintain an interest in a 401(k) savings plan 
established by my former employer (Mayer, Brown, Rowe & Maw). As 
disclosed in my attached financial disclosure form (SF-278), my account 
is vested in diversified mutual funds and no contributions to this 
account have been (or will be) made since the termination of my 
employment in February 2004.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

    If appointed to the position of General Counsel, I will take 
actions necessary to avoid a conflict of interest with the duties of 
that position. Specifically, within 90 days of appointment I will take 
the following actions.
    I will divest my stock holdings and the holdings of my spouse and 
dependent children in the following companies:

        Caremark Rx, Inc.
        Chevron-Texaco Corp.
        Citigroup Corp.
        Comcast Corp.
        Emerson Electric Co.
        General Electric Company
        International Business Machines Corp.
        Procter & Gamble.

    Until I have divested these interests, I will not participate 
personally and substantially in a particular matter that will have a 
direct and predictable effect on the above-referenced companies unless 
my participation is permitted due to a regulatory exemption or conflict 
of interest waiver.
    My remaining financial interests do not require recusal from any 
duties as General Counsel because they are covered by regulatory 
exemptions to 18 U.S.C. Sec. 208 or are otherwise not conflicting 
financial interests. However, in the event I obtain any interests that 
require my disqualification from participating in particular matters as 
General Counsel, I will comply with such disqualification requirements 
unless my participation is permitted due to a regulatory exemption or 
conflict of interest waiver.
    In addition, I will not personally and substantially participate in 
any particular matter in which my wife's law firm, King & Spalding LLP, 
has a financial interest unless I am permitted to participate due to a 
regulatory exemption or conflict of interest waiver. Furthermore, 
pursuant to 5 CFR Sec. 2635.502, I will not participate in any 
particular matter involving specific parties in which any client of my 
spouse is or represents a party, unless I am permitted to participate 
under ethics regulations.
    I will issue a statement memorializing my recusals within 90 days 
of my confirmation.
    In the event my participation in a matter from which I am 
disqualified is important to the government, I will seek advice from an 
ethics official on means to resolve a conflict of interest.

    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I represented, on a pro bono basis, the Special Operations Warrior 
Foundation, which sought a federal charter from Congress.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

    If appointed to the position of General Counsel, I will take 
actions necessary to avoid a conflict of interest with the duties of 
that position. Specifically, within 90 days of appointment I will take 
the following actions.
    I will divest my stock holdings and the holdings of my spouse and 
dependent children in the following companies:

        Caremark Rx, Inc.
        Chevron-Texaco Corp.
        Citigroup Corp.
        Comcast Corp.
        Emerson Electric Co.
        General Electric Company
        International Business Machines Corp.
        Procter & Gamble.

    Until I have divested these interests, I will not participate 
personally and substantially in a particular matter that will have a 
direct and predictable effect on the above-referenced companies unless 
my participation is permitted due to a regulatory exemption or conflict 
of interest waiver.
    My remaining financial interests do not require recusal from any 
duties as General Counsel because they are covered by regulatory 
exemptions to 18 U.S.C. Sec. 208 or are otherwise not conflicting 
financial interests. However, in the event I obtain any interests that 
require my disqualification from participating in particular matters as 
General Counsel, I will comply with such disqualification requirements 
unless my participation is permitted due to a regulatory exemption or 
conflict of interest waiver.
    In addition, I will not personally and substantially participate in 
any particular matter in which my wife's law firm, King & Spalding LLP, 
has a financial interest unless I am permitted to participate due to a 
regulatory exemption or conflict of interest waiver. Furthermore, 
pursuant to 5 CFR Sec. 2635.502, I will not participate in any 
particular matter involving specific parties in which any client of my 
spouse is or represents a party, unless I am permitted to participate 
under ethics regulations.
    I will issue a statement memorializing my recusals within 90 days 
of my confirmation.
    In the event my participation in a matter from which I am 
disqualified is important to the government, I will seek advice from an 
ethics official on means to resolve a conflict of interest.

                            C. LEGAL MATTERS
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.

                     D. RELATIONSHIP WITH COMMITTEE
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted Committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    Senator Lott. Thank you very much, gentlemen.
    I am pleased to recognize that Senator Bill Nelson from 
Florida has recognized us. And in a moment I would recognize 
him for a statement or any questions he would like to make.
    Just one sort of statement and then a question for you, Dr. 
Sampson. This is parochial perhaps in nature, but it certainly 
involves a broad part of the country. I am from Pascagoula, 
Mississippi. I grew up on the banks of the Pascagoula River 
rowing in a small skiff six miles off the coast to the nearest 
island, Round Island. I grew up fishing. I grew up next door to 
shrimpers and oystermen and red snapper fishermen and 
hardworking, great men and women, who worked tough hours but 
are really great people, too. They were my neighbors. They were 
my friends. They were my classmates.
    And so for 36 years in my public career as a staff member, 
as a Congressman and a Senator, I have been working to try to 
be sensitive to particularly the Gulf of Mexico fisheries in 
general, at all levels, conservation, sports, and commercial. 
And I must confess my bent toward commercial because I do think 
that they are farming the seas and are an important part of our 
economy. They provide a lot of income to the economy and a good 
living for the people that participate.
    And, of course, they are like farmers of the land. They are 
quite often influenced or affected by the weather and, you 
know, overfishing, which they have to control. But for years, I 
have been battling for fisheries in the Gulf, quite often a 
pretty lonely battle and only with marginal success. The 
National Marine Fisheries budget always shortchanges the Gulf. 
Between 2003 and 2005, the portion of the NMFS going to the 
Gulf of Mexico varied between 7 to 9 percent, only 7 to 9 
percent, while the portion of the Nation's fish caught in the 
Gulf of Mexico averaged 17 percent by weight, 21 percent by 
value. Meanwhile, the percentage of NMFS budget being held at 
headquarters has risen from 20 to 24 percent. It seems to me 
like priorities are a little misplaced.
    This is a Republican Administration. We are supposed to be 
pushing more money out of this city of what is available into 
where the rubber meets the road or the hook hits the water. And 
that has not been happening. The other way has been what has 
been happening.
    Now I have met many times with the Secretary of Commerce. 
Secretary Evans, when he left, he sent me a nice letter with a 
fish at the bottom, drawn on the bottom of this letter. And I 
gave him a fish tie as he left. And when I met with the new 
Secretary, this was the point I emphasized.
    But I have also met with the NMFS administrator, Bill 
Hogarth, in March. I asked him to provide me with apportionment 
by region of the Administration's 2006 request for NMFS, the 
justification for it, how they are going to adjust this 
inadequacy. And I have not received all of the information yet.
    Now at the very minimum, you talk about respect, Mr. 
Sullivan, for the Congress and the Committee. It seems to me 
that while you may not be able to comply with our request for 
the region, you could at least provide the information on what 
the situation is and what the situation is going to be.
    So here are my two questions for you, Dr. Sampson. One, 
will you see to it I get this information? And two, will you 
help us address this disparity in funding?
    Dr. Sampson. With respect to your first question, Mr. 
Chairman, being responsive to Members of Congress is a very 
high priority for me, has been over the last 4 years. And I 
will ensure that you receive a response very promptly to your 
request for information.
    With respect to your second question, I have lived all of 
my adult life in Gulf Coast states. I went to graduate school 
in New Orleans. I have lived all of my adult life in Texas. And 
I am committed to working with the Gulf region to ensure the 
funding needed to meet resource management needs is 
appropriately allocated and look forward to working with you 
and this Committee to that end, if I have the chance to serve.
    Senator Lott. I will give you a map that shows the 
apportionment by region. And I will be glad to have it blown up 
for your wall, if you would like. But for now, I will give you 
just this map.
    Now Senator Hutchison from Texas and Senator Bill Nelson 
from Florida and Senator Rockefeller from the north side of the 
Gulf would all appreciate your cooperation.
    [Laughter.]
    Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman.
    Let me address this to both of you. During the Clinton 
Administration, it was the Department of Commerce that was 
meant to decide what was going to happen about steel policy. 
Now when I bring up the word steel policy, Chairman Lott tends 
to die, because he says, ``Here we go again.'' But I am not----
    Senator Lott. I have been with you on occasion. Do not 
forget that.
    Senator Rockefeller. I know that. And I am not doing it for 
the purpose of discussing steel. It is a philosophical point. 
And there was a very interesting dynamic which caused a fairly 
substantial rift, actually, between myself and President 
Clinton for a number of years. And that is that the Department 
of Commerce sort of discusses what should be our policy with 
WTO, what should be our policy with the trade representatives, 
that, too, but what should be our policy about making sure that 
we keep manufacturing, that the steel industry remain healthy.
    We understand that Brazil and China and others are--the 
Department of Commerce's policy was pretty good. The problem 
was that when we would have meetings of the steel caucus, it 
was Secretary Ruben who became the Department of Commerce. And 
he had decided that this was a completely open world for free 
trade. And I understand that. One has to be a realist here. But 
he spoke for the President. And in fact, he, I think, 
influenced the President to back away from his commitment to 
West Virginia to try and help our steel industry.
    And the result was our steel industries have been through 
bankruptcies and all kinds of situations. And relatively few 
people are working. And I care about that because now, as 
Governor, I literally--with Weirton Steel, which I think is the 
eighth largest producer, they were about to close down because 
of labor-management strife. And I went up with some people and 
spent a number of weeks and actually turned it around, saved 
it. And they became an ESOP, actually the largest ESOP. I don't 
think United was an ESOP at that point.
    But what was interesting is the fact that there is the 
State Department, there is Treasury, there is monetary policy, 
there are all kinds of other things. The Department of Commerce 
economic decisions, manufacturing decisions, never stand on 
their own, because in a sense they cannot, because they are 
just part of the picture.
    So once you say something is part of the larger picture, 
then that tends to marginalize what you might be trying to 
think of in the Department of Treasury or the Treasury of the 
United States would say: Well, no we cannot do that because we 
have this and that political problem, or somebody else would 
say: Well, we have special problems with China or Brazil, other 
things that we have to tend to.
    And I am interested in your sort of reaction on the part of 
each of you to that very real situation. I do not mimic the 
situation, but it was one that turned out to be very 
destructive to us.
    Dr. Sampson. Well, Senator, obviously I cannot speak about 
what happened in the previous Administration. What I would say 
is that the President's 2001 steel initiative, I think, was a 
very bold step. Secretary Evans was a critical player in 
advising the President on that approach. And I know that 
Secretary Gutierrez is a key member of the President's economic 
team. The President has asked him to head the prosperity pillar 
for the Security and Prosperity Partnership between Canada, the 
U.S., and Mexico that is currently underway.
    And this Administration is committed to a very strong and 
robust steel, domestic steel, industry. And that will be the 
goal toward which we will continue to work.
    Senator Rockefeller. Which, before I call on Mr. Sullivan, 
leads me to the second part of that, which is that you are 
quite right that the President got very high marks in West 
Virginia for doing the Section 201. But what happened 
thereafter, almost nobody in West Virginia really understood, 
or across the country understands where steel is produced. And 
that is that Bob Zoellick, then USTR, took 95 percent of what 
the Section 201 covered and exempted it from Section 201.
    So that was little noticed. The 201 was greatly noticed. 
But the effect was catastrophic. And it is that pull between 
agencies and pull between larger and smaller priorities, which 
is interesting to me.
    Mr. Sullivan, do you have any point you want to----
    Mr. Sullivan. Senator, the only observation I would make, I 
really am new to the Department's issues and steel in 
particular, but I have a lot of experience in my prior 
government service with the interagency process and how it 
works. And I am committed to helping Secretary Gutierrez 
achieve his goals for the President. The President has 
entrusted him with substantial responsibilities. And I am aware 
of how the interagency process can work and sometimes not work. 
And I am committed to helping Secretary Gutierrez in that 
process.
    Senator Rockefeller. OK. And did you have a----
    Mr. Sampson. Senator, other than to say my next door 
neighbor owns a steel company. And so I hear about this issue 
not only here but at Little League ball games and across the 
fence. So I am quite aware of the ramifications of our 
decisions here in Washington on manufacturers and users of 
steel policy.
    Senator Rockefeller. I look forward to supporting you both. 
Thank you.
    Senator Lott. Thank you, Senator.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. Thank you, Mr. Chairman.
    I just want to ask one question of Mr. Sampson. It is a 
very important position. And I understand he is a tremendously 
credentialed person for this high-level executive 
responsibility of Number 2 in the Department.
    I would just like your opinion. There is legislation that 
has been filed by Senator Santorum of Pennsylvania. And what 
the legislation does, it says that if there is a competitive 
alternative to a government website, that the government cannot 
compete with the competitive alternative. The obvious example 
is in your Department. At the direction of President Bush upon 
his inauguration, he directed that all the agencies of 
government would come out with a website so that information 
would be freely and quickly available to the people of the 
United States.
    This particular website for the National Weather Service 
was especially helpful and critical when four hurricanes hit my 
state within a 6-week period starting last hurricane season, as 
a matter of fact. Now I do not know what the weather is like in 
Pennsylvania, but I know getting information about hurricanes 
can be a matter of life and death to people in Florida, as was 
the case. As a matter of fact, there were recorded nine 
billion, with a b, hits on the National Weather Service website 
during that 6-week period of those hurricanes. That, by the 
way, far exceeds the number of hits on any government website. 
The most up until that point had been the six million hits on 
the NASA website when the Rover landed on the surface of Mars.
    Now what Senator Santorum's bill S. 786 would do would 
require the elimination of the website because there is a 
company in his state, AccuWeather, that offers the same 
information. And so it would require that the government not be 
in competition.
    Now that is--I have laid out the case. Tell me what your 
feelings are.
    Mr. Sampson. Well, Senator, first of all, weather is a very 
important part of our function. About 30 percent of the economy 
of the United States is affected by the weather, not to mention 
the life and safety issues that you have so clearly 
articulated. I am not aware that the Administration has issued 
a statement on the Santorum bill at this point. What I can tell 
you is that, if confirmed by the Senate, I will be committed to 
a very strong, robust national weather service complete system 
at the Department of Commerce. And we will work to ensure that 
information is readily available to the American citizens.
    I am aware that this is an important issue. I have been 
very broadly briefed on this. But as I said, I am not aware 
that there is a statement of position on this particular bill 
at this time, which I think was just recently filed.
    Senator Nelson. OK. That is good enough. And I hope I do 
not have to come see you in the future to remind you of your 
statement today. Because I think reason and common sense will 
prevail. Particularly, by the way, within 2 weeks we are now 
entering the next hurricane season.
    And Mr. Chairman, I would just say in passing that I want 
to commend to you the service that NOAA does and the hurricane 
trackers. I have flown on those hurricane hunters, in fact was 
flying on the one when the first hurricane, Charlie, was south 
of Cuba, as they are dropping the sondes in predesignated 
points along the route, measuring all kinds of data. It comes 
back to the airplane real time, is formulated and sent by 
satellite to the National Hurricane Center, which then computes 
the data which gives us so much of a better accuracy in 
predicting the path and the ferociousness of a hurricane.
    And I would commend to you on some of their propeller-
driven aircraft that they use for lower altitudes, they need 
some more. So having been there and seen what the valuable 
service is, I would commend that to you as you get into the 
deliberations on those hurricane hunters.
    Senator Lott. Senator Nelson, you do know where the Air 
Force's hurricane hunters originate from, do you not?
    Senator Nelson. Well, you must be telling me Mississippi.
    Senator Lott. Keesler Air Force Base, Mississippi. We are 
very proud of their work. And being the beneficiaries of some 
hurricane attention, we share all of your concerns. And we 
appreciate the service they provide.
    Thank you very much, gentlemen. Congratulations to you for 
being nominated. And best wishes in the confirmation process 
and in your job when you are confirmed.
    This hearing is adjourned.
    [Whereupon, at 10:43 a.m., the hearing was adjourned.]




                            A P P E N D I X

    Response to Written Questions Submitted by Hon. David Vitter to 
                          Dr. David A. Sampson
    Question. As you may know, Louisiana's crawfish industry has been 
battered for years by imports of dumped crawfish tail meat from China. 
There has been an antidumping duty order in place since 1997, but it 
has been circumvented on a massive scale and Customs has collected only 
about five percent of the antidumping duties owed to the United States. 
Some of those duties have been provided to the domestic crawfish 
industry under the Continued Dumping and Subsidy Offset Act (CDSOA) and 
have played a vital role in allowing the industry to rebuild and remain 
competitive.
    In the past, nearly all of the duty collections have come from 
``automatic liquidation'' of entries by shippers that do not have their 
own individual duty deposit rates and have not asked the Department of 
Commerce to conduct an administrative review of their entries. These 
shippers have waived their right to review by Commerce and have thus 
consented to the liquidation of their entries at the China-wide rate of 
223.01 percent. Previously, Commerce has ordered Customs to perform 
``automatic liquidation'' of such entries shortly after the deadline 
for requesting an administrative review has lapsed. This year, without 
any notice to the domestic industry, Commerce has reversed itself and 
is refusing to issue the ``automatic liquidation'' instruction to 
Customs with respect to entries made during 2003-2004. If Commerce 
persists in this course, there will likely be virtually no CDSOA funds 
available for the domestic crawfish industry this year. This will cause 
serious additional damage to an industry which has already become the 
poster child for poor enforcement of the antidumping laws. This single 
case already accounts for more than 80 percent of all delinquent AD/CVD 
duties.
    As Deputy Secretary will you make assurances that the Department of 
Commerce will take immediate action to expedite the issuance of the 
``automatic liquidation'' instructions for 2003-2004? I would also like 
for you to ensure that the domestic crawfish industry receives a full 
and fair opportunity for notice and comment before Commerce changes its 
prior practice on ``automatic liquidation'' in this case.
    Answer. I appreciate your and your constituents' concerns regarding 
the issuance of automatic liquidation instructions in the 
administrative reviews of the antidumping duty order on crawfish from 
China. This situation has arisen as a result of last summer's 
reorganization of Import Administration and the fact that there was not 
a consistent practice on the issuance of automatic liquidation 
instructions in cases involving non-market economy (NME) countries 
(such as China) among the three enforcement offices that were 
responsible for conducting such cases prior to the reorganization.
    As a result of the reorganization, the NME-related casework of 
those three offices was consolidated into a single office--the Office 
of Non-Market Economy Compliance. Since the consolidation, that office 
has been working to ensure that uniform policies are applied across all 
proceedings before it. With respect to the issuance of liquidation 
instructions in cases involving non-market economy countries, the 
prevailing practice was not to issue automatic liquidation instructions 
at the outset of a proceeding, but rather to wait until the conclusion 
of the proceeding. As you and your constituents know, a different 
practice was previously followed for several years with respect to the 
antidumping order on crawfish.
    In the current crawfish review, in an effort to ensure consistency 
across proceedings, a decision was made not to issue automatic 
liquidation instructions at the outset of the review, in contrast to 
the action taken in earlier reviews. I regret that your constituents 
were not given an opportunity to comment on this change in practice, 
and I have expressed my concerns about it to senior Import 
Administration officials.
    Import Administration will be issuing shortly a Federal Register 
notice requesting public comments on whether its current practice on 
the issuance of automatic liquidation instructions in NME proceedings 
should be revised. This notice will allow your constituents an 
opportunity to recommend changes to the current practice and offer 
their suggestions on how the practice might be improved. I understand 
that there may be conflicting views among various domestic industries 
on this question, so I would encourage your constituents who are 
interested in this issue to participate actively in this comment 
process.
    Finally, with respect to the duty collection issue you raised 
during our recent conversation, U.S. Customs and Border Protection 
(CBP) is responsible for collecting duties from U.S. importers of 
crawfish tail meat from China. To the extent you have not already done 
so, you or your staff may wish to contact appropriate officials within 
the CBP to discuss the issue further.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Dr. David A. Sampson
    Question 1. Can you describe the progress and status of the 
President's Manufacturing Initiative?
    Answer. The ``Manufacturing in America Report'' included 57 
recommendations to enhance U.S. manufacturing competitiveness. 
Responsibility for these recommendations stretches across various 
agencies and the Congress.
    Of the 57 Recommendations, 21 have been initiated, some on an 
ongoing basis:

        1. Create an Assistant Secretary of Commerce for Manufacturing 
        and Services.

        2. Create a new Office of Industry Analysis.

        3. Establish a President's Manufacturing Council to provide 
        oversight and advice on the implementation of the Manufacturing 
        Initiative.

        4. Coordinate Manufacturing Extension Partnership centers with 
        other Commerce programs.

        5. Promote the protection of U.S. intellectual property abroad 
        by expanding cooperative efforts with developing country 
        trading partners.

        6. Investigate aggressively allegations of theft of 
        intellectual property that would violate commitments made under 
        TRIPS or similar provisions of bilateral or regional 
        agreements.

        7. Establish an Office of Investigations and Compliance within 
        Commerce.

        8. Establish a Task Force within Commerce's Import 
        Administration to pursue the elimination of Foreign Unfair 
        Trade Practices.

        9. Establish an office within Import Administration to 
        coordinate cases involving non-market economies.

        10. Enhance the U.S. Government's efforts on behalf of U.S 
        manufacturing by consolidating Commerce Department export 
        promotion functions.

        11. Accelerate implementation of the President's National 
        Export Strategy.

        12. Review the existing structure of the U.S. foreign-trade 
        zone program to determine how it could be enhanced to provide a 
        greater incentive to manufacture in the U.S.

        13. Promote health savings accounts.

        14. Adopt and implement bar coding of medical products.

        15. Reduce the burden of regulations on manufacturing 
        enterprises.

        16. Create an interagency working group on manufacturing 
        research and development.

        17. Encourage the Small Business Innovation Research and Small 
        Business Technology Transfer Programs to focus on 
        manufacturing.

        18. Enact class-action reform.

        19. Expand the reach of programs designed to provide technical 
        assistance.

        20. Promote global recognition of U.S. technical standards.

        21. Create an interagency federal task force to address the 
        structural economic challenges faced by manufacturing-dependent 
        communities.

    Question 2. If manufacturing is such an important priority for the 
Administration, why does the President continue to cut the 
Manufacturing Extension Partnership, a program that assists small and 
medium sized manufacturers become more competitive?
    Answer. The fiscal discipline required in developing this budget 
forced us to make some tough choices. The Administration proposes to 
fund the Hollings Manufacturing Extension Partnership Program (Hollings 
MEP) at $46.8 million, 50 percent of the FY 2005 grant level. At this 
level, the Administration will maintain a national network of centers 
while focusing funding based on centers' performance and need. The FY 
2006 Budget is not intended to reduce the number of centers. One of the 
strengths of the Hollings MEP network has been its utility to other 
federal agencies; we will continue to aggressively pursue partnerships 
to leverage the network. Last year, federal partners provided an 
additional $7 million in funding to centers.

    Question 3. Last year, the Congress passed a bill, S. 1134, 
reauthorizing the Economic Development Administration. Could you please 
update the Committee on the progress that has been made implementing 
the Act including a timeline for Issuance of regulations?
    Answer. EDA's regulations have been drafted and are in the final 
stages of the clearance process.

    Question 4. When do you expect the Administration will put forward 
a nominee to head the Economic Development Administration?
    Answer. The Administration is committed to the nomination of an 
individual to serve as Assistant Secretary of Economic Development as 
soon as possible. Such an announcement will be made by the White House.

    Question 5. We have learned about a proposed buyout of staff at the 
Economic Development Administration (EDA). Given the fact that the 
Congress so far has shown no indication that it will approve the 
consolidation of economic development agencies in the proposed 
Strengthening America's Communities Initiative, do you think reducing 
manpower is the wisest course? If manpower is reduced and 
appropriations are not reduced, how will the EDA fulfill its mission as 
required by Public Law 108-373?
    Answer. A series of flat or decreasing budgets since FY 2002 for 
salaries and expenses (S&E) combined with increasing costs for salaries 
and inflation have required that EDA absorb approximately $1.2 million 
annually from its S&E base, the equivalent of 10-11 FTE. Through FY 
2004, savings realized from the Headquarters Restructuring combined 
with other cost reduction measures have enabled EDA to operate within 
the resources available.
    EDA received another reduced budget in FY 2005. In order to 
continue to effectively manage within the resources available this 
fiscal year, EDA must reduce its workforce. In order to accomplish this 
with the minimum adverse impact possible, EDA is proposing to offer 
Voluntary Early Retirement Authority and Voluntary Separation Incentive 
Payments (buyouts) for up to the amount of funds available.
    While the Congress has not yet addressed an appropriation for the 
Strengthening America's Communities Initiative, the House Commerce, 
Justice and Science Appropriations Subcommittee FY 2006 mark for EDA 
would appropriate $53 million less in program funding and $3.5 million 
less in S&E funding than the FY 2005 levels. EDA must plan for this 
significantly larger budget reduction of 12 percent, making the 
accomplishment of buyouts in FY 2005 even more important for the Agency 
to be able to continue to operate without adverse actions such as 
furloughs or involuntary reductions.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            David A. Sampson
    Question 1. As you know, an independent Commission last year 
released a comprehensive report on U.S. ocean policy. This report 
included more than 200 recommendations on ways to improve U.S. ocean 
policy. Have you reviewed this report? As you will have jurisdiction 
over the National Oceanic and Atmospheric Administration, how do you 
plan to incorporate some of these recommendations?
    Answer. While I have not personally read the entire report of the 
U.S. Commission on Ocean Policy, I have been briefed on the report and 
I am familiar with its contents. In December 2004, the Administration 
released its response to the Ocean Commission Report in the ``U.S. 
Ocean Action Plan.'' This Action Plan identifies immediate, short-term, 
and long-term actions that will provide the direction for the future of 
U.S. ocean policy. Specifically, the Action Plan includes activities 
that are designed to: improve Federal coordination; develop an ocean 
research priorities plan and implementation strategy; build an ocean-
observing system; support market-based fisheries; and develop and 
deploy new state-of-the-art research vessels. Along with the U.S. Ocean 
Action Plan, the President signed an Executive Order that created a 
Cabinet-Level Committee on Ocean Policy that will advise the President 
on domestic policies concerning ocean-related matters. I am committed 
to assist the Administration in the implementation of the U.S. Ocean 
Action Plan and the recommendations of the Committee on Ocean Policy to 
ensure the vitality of our ocean resources.

    Question 2. Do you view our trade deficit as a problem?
    Answer. The trade deficit is a matter of concern to the United 
States, but not the only measure of the success of our economic 
policies. Our strong GDP growth relative to the major regional 
economies around the globe is a significant driver in our ability to 
purchase goods and services from abroad. Slow economic growth in our 
major trading partners has slowed the appetite for U.S. goods and 
services. We must continue to promote expansionary growth policies in 
those countries.
    Additionally, We must continue to increase exports by improving the 
competitiveness of American companies and leveling the playing field 
for U.S. goods and services. We also need to increase domestic savings, 
which the President is addressing through tax reforms.

    Question 3. What steps is the Commerce Department taking to prepare 
for the possible transfer of Community Development grants to the agency 
from HUD?
    Answer. The Department of Commerce has a team analyzing the 
staffing, infrastructure and administrative requirements for the new 
bureau. The Administration will develop projections for the Salaries 
and Expense requirements of the Strengthening America's Communities 
Initiative in conjunction with legislative authority granted by 
Congress and recommendations from relevant federal agencies and various 
stakeholders.

    Question 4. What expertise exists at Commerce to administer the 
CDBG program?
    Answer. It should be noted that the President's Strengthening 
America's Communities Initiative is not a consolidation of the CDBG 
program into the Department of Commerce. The Initiative will transfer 
funding for 18 community and economic development programs across the 
Federal Government into one housed within the Department of Commerce. 
We anticipate that the new program will incorporate the full range of 
flexible uses available under all of the current grant programs. The 
Strengthening America's Communities Initiative is not simply a 
community development or a housing assistance program (a common use of 
CDBG funding)--it is an extremely flexible community and economic 
development program that can, at a community's discretion, provide 
assistance associated with any number of different community needs or 
local development priorities.
    One of the key reasons the President selected the Department of 
Commerce as the home for the new program is that of all the federal 
departments engaged in community and economic development, the Commerce 
Department has had the most success in leveraging the resources of the 
private sector.
    Furthermore, the Department of Commerce has a 40-year track record 
of providing grants to both urban and rural areas in support of 
community and economic development initiatives in all 50 states and 
U.S. territories. The Department of Commerce manages a broad array of 
grant programs in the Economic Development Administration, the Minority 
Business Development Agency, the National Institute of Standards and 
Technology and the National Oceanic and Atmospheric Administration.
    Currently, Commerce manages an active $2.3 billion portfolio of 
grants and loans specifically focused on community and economic 
development, encompassing diverse types of projects such as public 
works, economic adjustment, disaster recovery assistance, military base 
realignment, strategic planning, and economic development research.
    The Department also funds an extensive network of University 
Centers, regional development councils, economic development districts, 
and community development organizations, whose missions are to promote 
community and economic and development initiatives. All this experience 
will be incorporated into the Commerce Department's administration of 
the President's initiative.

    Question 5. I believe America's communities deserve the same 
financial support and service from our government as the efforts to 
rebuild in Afghanistan and Iraq. How do I respond to my constituents 
who write me that we are cutting important domestic programs for 
community and economic development, while spending more money abroad to 
rebuild Iraq?
    Answer. The President is proposing to focus scarce resources on 
America's neediest communities. Currently there are 35 federal programs 
in seven different agencies that address economic and community 
development. In Fiscal Year (FY) 2005, Congress allocated $16.2 billion 
to these programs. For FY 2006, the President is proposing to spend 
$15.5 billion on these programs, a reduction of only 4 percent. This 4 
percent reduction across community and economic development programs is 
consistent with spending restraint in other non-defense, non-homeland 
security areas. The FY 2006 Budget reflects the President's commitment 
to providing the critical resources for our Nation's highest 
priorities: fighting the war on terror, strengthening our homeland 
defenses, and sustaining the momentum of our economic recovery. 
Overall, the Budget focuses on priorities while targeting resources on 
the most successful and results-oriented programs.

                                  <all>
</pre></body></html>
